No. 20A137

In the Supreme Court of the United States
HARVEST ROCK CHURCH, INC., ET AL., Applicants,
v.
GAVIN NEWSOM, Respondent.

CERTIFICATE OF ELECTRONIC SERVICE

I, Helen H. Hong, Deputy Solicitor General, a member of the Bar of this Court
hereby certify that on January 29, 2021, consistent with this Court’s order of April
15, 2020, and all parties’ consent, an electronic copy of State Respondents’
Consolidated Opposition to Emergency Applications for Writ of Injunction in the
above-entitled case was served by electronic mail upon:
Mathew D. Staver
P.O. Box 540774
Orlando, FL 32854
Montclair, NJ 07042
court@lc.org
I further certify that all parties required to be served have been served.
/s/ Helen H. Hong
HELEN H. HONG
Deputy Solicitor General
Office of the Attorney General
600 West Broadway, Ste. 1800
San Diego, CA 92101
Telephone: (619) 738-9693
Counsel for State Respondent

